IN THE SUPREME COURT OF THE UNITED STATES
No.
DAVID J. ZAWISTOWSKI, Petitioner
v.
MICHAEL D. KRAMER, et al. Respondents.
CERTIFICATE OF SERVICE
I hereby certify that three (3) copies of the PETITION FOR A WRIT OF
CERTIORARI were sent to the below listed individuals by enclosing copies
thereof in envelopes, addressed as shown below with First Class postage prepaid,
and depositing them in the U.S. Mail Depository at the Post Office in
Bourbonnais IL, 60914 on October 8, 2021.
Priyanka Gupta
1-312-814-3312
AST. ATTORNEY GENERAL
100 West Randolph Street
12th Floor
Chicago, Illinois 60601
- Respondent Kramer

David A Sorensen
1-312-822-3350
LAW OFFICES OF EDWARD J. KOZEL
333 S. Wabash Avenue
25th Floor
Chicago, IL 60604
- Respondent Slawinski

Lawrence S. Beaumont
1-312-765-6000
650 N Dearborn St.
Suite 700
Chicago, IL 60654
- Respondent Glazar
- Respondent Morgan & Glazar
- Respondent Donald

Rhonda J. Marrs
# unknown
1556 Amhurst Way
Bourbonnais, IL 60914
- Respondent Marrs

I declare under penalty of perjury that the foregoing is true and correct.
Executed on
fe ., 2021

David Zawi$toyski
Petitioner, pro se
920 Stratford Dr E #8
Bourbonnais, IL 60914
zaw1122@gmail.com
1-815-258-5460

